               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Springfield Network Distribution
            Center – Postal Vehicle
             Service Operations

                       Audit Report




                                              August 26, 2013

Report Number NO-AR-13-006
                                                                         August 26, 2013

                                             Springfield Network Distribution Center –
                                                    Postal Vehicle Service Operations

                                                         Report Number NO-AR-13-006



BACKGROUND:
The U.S. Postal Service transportation        necessary. We estimate the Postal
network that uses Postal Service              Service could reduce 20,280 driver
vehicles and employees is called the          workhours and save or avoid costs of
Postal Vehicle Service (PVS). PVS             about $785,000 annually if productivity
operations at network distribution            standards were met. During the audit,
centers (NDC) include drivers using           management initiated the elimination of
tractors to move trailers in or around a      11,657 of the excess hours identified in
facility yard. Processing operations          schedules that were not in use.
require the timely and efficient unloading
of mail from trailers as they arrive and      Finally, we observed PVS drivers not
timely loading of mail into trailers for      consistently using safety belts while
immediate departure from the facility.        driving in the Springfield NDC yard as
The Springfield, MA, NDC has 58 PVS           required, and Postal Service facility
drivers who complete an average of            management not enforcing the policy.
3,743 trailer moves in the yard per
week.                                         WHAT THE OIG RECOMMENDED:
                                              We recommended the vice president,
Our objectives were to assess trailer         Northeast Area Operations, require that
loading and unloading practices and           Springfield NDC management
determine whether staffing of PVS driver      periodically assess PVS driver workload
operations was efficient, effective, and      and staffing to ensure compliance with
economical at the Springfield NDC.            trailer move standards. We also
                                              recommended management verify the
WHAT THE OIG FOUND:                           elimination of 11,657 annual PVS
The Springfield NDC generally executed        workhours associated with inactive
effective and efficient unloading and         schedules and eliminate an additional
loading practices. However, we found          8,623 excess annual workhours. Finally,
that PVS drivers performed 3.3 trailer        we recommended management
moves per hour, rather than the               reemphasize and enforce the safety
standard five, because management did         policy that PVS drivers wear safety belts
not assess driver workload and staffing       when their vehicles are in motion.
levels. As a result, the Springfield NDC
expended more driver workhours than           Link to review the entire report
August 26, 2013

MEMORANDUM FOR:             RICHARD P. ULUSKI
                            VICE PRESIDENT, NORTHEAST AREA OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Springfield Network Distribution
                            Center – Postal Vehicle Service Operations
                            (Report Number NO-AR-13-006)

This report presents the results of our audit of the Springfield Network Distribution
Center – Postal Vehicle Service Operations (Project Number 13WG009NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, deputy
director, Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: David E. Williams, Jr.
    Mary T. Taylor
    Jennifer L. Stevenson
    Corporate Audit and Response Management
Springfield Network Distribution Center – Postal                                                                   NO-AR-13-006
 Vehicle Service Operations



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Live Unloading/Loading Practices ................................................................................... 2

Postal Vehicle Service Yard Move Productivity ............................................................... 3

Other Matters – Safety Concerns .................................................................................... 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objectives, Scope, and Methodology .......................................................................... 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impacts ..................................................................................... 11

Appendix C: Management's Comments ........................................................................ 12
Springfield Network Distribution Center – Postal                                                      NO-AR-13-006
 Vehicle Service Operations



Introduction

This report presents the results of our audit of the Springfield Network Distribution
Center (NDC) – Postal Vehicle Service (PVS) operations (Project Number
13WG009NO000). The objectives of our audit were to assess unloading and loading
practices and determine whether staffing of PVS transportation operations is efficient,
effective, and economical at the Springfield NDC. This self-initiated audit addresses
operational risk. See Appendix A for additional information about this audit.

U.S. Postal Service transportation network using Postal Service vehicles and
employees is referred to as PVS. Because PVS operations are local, they are managed
at the facility level under the guidance of district, area, and headquarters transportation
officials. PVS activities at NDCs include yard operations, which is the movement of
trailers and equipment in, or around a facility yard (called spotting), typically to and from
the facility dock doors. PVS drivers move trailers using spotter trucks.1

NDCs are tasked with ‘live unloading’ and ‘live loading’ of all arriving and departing mail
transportation trailers. Live unloading is when the highway contract route (HCR) or PVS
driver brings a trailer directly to a dock door when it enters the facility for unloading. Live
loading is when the HCR or PVS driver takes a loaded trailer directly from the dock door
and out of the facility yard (see Figure 1). In either case, the trailer is not placed (or
spotted) in the yard for movement at a later time. Not parking or spotting trailers in the
yard ensures mail flows to the next operation or facility without delay and reduces total
operating expenses at the same time. 2

     Figure 1. Three HCR Tractor Trailers Parked at Springfield NDC Dock Doors as
                          Part of Live Load/Unload Program




1
    Trucks used to move trailers within a NDC yard operation.
2
    Standard Operating Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.
                                                           1
Springfield Network Distribution Center – Postal                                                     NO-AR-13-006
 Vehicle Service Operations

                          Source: U.S. Postal Service Office of Inspector General (OIG)
                          photograph taken February 20, 2013.

The Springfield NDC has 58 PVS drivers responsible for an average of 3,743 trailer
moves in the yard per week, servicing 164 dock doors.

Conclusion

The Springfield NDC generally executed effective and efficient unloading and loading
practices. We found that staff members were properly unloading trailers as they came
into the facility yard and properly loading trailers and moving them directly from the dock
door and out of the facility yard. However, we found that PVS drivers performed
3.3 trailer moves per hour, instead of the standard five, because management did not
assess driver workload and staffing levels. As a result, the Springfield NDC expended
more driver workhours than necessary.

We estimate the Postal Service could reduce 20,280 driver workhours and save or
avoid about $785,000 annually, if productivity standards were met. During the audit,
management initiated the elimination of 11,657 workhours associated with PVS
schedules that were in place but were not in use.3 See Appendix B for our monetary
impact calculations. We also observed PVS drivers not consistently using safety belts
while driving in the Springfield NDC yard as required, and management not enforcing
the policy.

Live Unloading/Loading Practices

The Springfield NDC generally executed effective and efficient unloading and loading
practices and followed the Postal Service’s NDC policy for live unloading and loading
when possible. Our observations at the facility and our analysis of yard moves revealed
that Springfield NDC staff unloaded mail from trailers4 as the trailers arrived at the
facility yard and loaded trailers to the extent feasible to immediately depart from the
facility yard. This process avoids unnecessary movement and placement (spotting) of
trailers in the yard by PVS drivers, reducing overall transportation time and handling
costs.

To analyze loading activity, we extracted a historical outbound trip report from the Yard
Management System (YMS) 5 that details all the outbound dispatches made by the
Springfield NDC in a 2-week period. We also obtained the spotter activity archive report
for the same period from YMS. Using these reports, we compiled a list of trips and
sorted the list by dock door to determine what time trips departed from each door. If
there was more than 1 hour between trips leaving from the same door, we determined
the trips were candidates for live loading. We then considered other factors,

3
  By eliminating these schedules, the Postal Service avoided any additional transportation costs that could be
associated with those schedules.
4
  We observed operations at the dock doors used for the Springfield NDC operations - doors 1 through 25, and
60 through 94.
5
  An automated system that tracks vehicles through a facility yard.
                                                          2
Springfield Network Distribution Center – Postal                                                        NO-AR-13-006
 Vehicle Service Operations


including the percentage of load on each trip, dock space for staging mail for
subsequent trips, and location of the move. Based on our analysis, we determined the
Springfield NDC staff was live loading 94 percent of outbound trips, with a total of only
124 trips over a 2-week period, having the potential to be live loaded, as shown in
Table 1.

               Table 1. Springfield NDC Outbound Trip (Live Load) Analysis

                                                        Total Trips           Additional Trips
                                                        That Were              That Could Be
                           Date                        Live Loaded              Live Loaded
                         3/2/2013                                 145                        17
                         3/3/2013                                 157                        13
                         3/4/2013                                 173                         7
                         3/5/2013                                 173                        12
                         3/6/2013                                  11                         0
                         3/7/2013                                 162                         7
                         3/8/2013                                 153                         6
                         3/9/2013                                 173                         8
                        3/10/2013                                 153                        13
                        3/11/2013                                 120                         9
                        3/12/2013                                 175                        18
                        3/13/2013                                 176                         4
                        3/14/2013                                 169                         1
                        3/15/2013                                 171                         9
                 Total Outbound Trips                           2,111                      124

                 Percentage of Trips                                94%                           6%
               Source: Postal Service, OIG analysis, and YMS, as of March 15, 2013.

Postal Vehicle Service Yard Move Productivity

We found that Springfield NDC could make PVS operations more efficient by holding
PVS drivers to productivity standards established in the Postal Service’s 2005
Breakthrough Productivity Initiative.6 The standard specifies that PVS drivers are
expected to complete 40 trailer moves 7 within an 8-hour period. This breaks down to
one driver accomplishing five trailer moves within a NDC yard per hour. 8




6
  The initiative was started to drive costs from the Postal Service while creating continuous improvement capability.
7
  A move consists of moving trailers and equipment from one location to another in the NDC yard.
8
  Headquarters and senior area transportation managers have explained that this productivity standard was
reasonable and appropriate.
                                                             3
Springfield Network Distribution Center – Postal                                                     NO-AR-13-006
 Vehicle Service Operations



To assess productivity, we analyzed the workload of 58 PVS drivers over three tours
that were responsible for moving trailers around the Springfield NDC yard. We reviewed
all trailer moves associated with NDC operations for the 6-month period, August 1,
2012, through January 31, 2013. We conducted observations and analyzed operational
workload data9 and confirmed that the established productivity standards of five moves
per hour were reasonable and attainable for PVS drivers at the Springfield NDC. 10 We
found that Springfield NDC PVS drivers averaged 3.3 trailer moves per hour. Below in
Table 2 are the results of our analysis of the PVS driver productivity at the Springfield
NDC.

                Table 2. Springfield NDC PVS Drivers Productivity Analysis

                    Weekly
                  Workhours              Weekly                   Excess                    Excess
                  Assigned to          Workhours                Workhours                 Workhours
    Average        Complete            Needed to                Assigned to               Assigned to
    Weekly          Trailer             Complete              Complete Trailer          Complete Trailer
     Moves          Moves             Trailer Moves           Moves (Weekly)            Moves (Annually)

     3,743            1,139                   749                      390                      20,280
Source: Postal Service, OIG analysis, YMS, Transportation Information Evaluation System (as of June 4, 2013).

We found that productivity standards were not met because Springfield NDC
management did not fully assess workload and staffing requirements. If productivity was
set at the standard of five moves per hour, the Northeast Area could phase out
20,280 annual workhours. During our audit, we considered changes that management
initiated to eliminate 11,657 workhours contained in existing PVS schedules that were
not in use; thereby, avoiding the associated operating costs of $451,259 annually (see
Table 3).11




9
  Our analysis also included PVS driver workload associated with the surface transfer center (STC), which is located
at the NDC and is supported by the drivers.
10
   The productivity standards are reasonable and attainable based on our observations of yard size and traffic
patterns in the yard.
11
   Eliminating these unused schedules is a cost avoidance for the Postal Service since these schedules are listed as
active and have been used previously, the American Postal Workers Union could request these schedules be staffed.
                                                          4
Springfield Network Distribution Center – Postal                                                  NO-AR-13-006
 Vehicle Service Operations



                           Table 3. Postal Service-Initiated Changes

                                                                   Annual                Annual
                                          Tour of                Workhours              Workhours
        Schedule Number                  Operation               Eliminated              Added
             11405                          1                       2,922                     0
             12406                          1                       2,056                     0
             12407                          1                       2,087                     0
             21507                          2                       2,922                     0
             21508*                         2                       2,922                     0
             26508*                         2                           0                 1,252
             Totals                                                12,909                 1,252
          Total Annual
       Workhours Reduced                                            11,657
      Note: *Schedule 26508 replaced schedule 21508 because it has a smaller frequency (runs on fewer days).
      Source: OIG analysis, Vehicle Information Transportation Analysis and Logistics (VITAL), and the Postal
      Service, as of June 5, 2013.

The remaining 8,623 workhours could be eliminated from active PVS schedules saving
$333,809 annually.

Other Matters – Safety Concerns

On February 20, 2013, we observed seven PVS drivers not wearing safety belts. This
violation of Postal Service policy occurred because management does not always
enforce the policy which states that “drivers must wear safety belts whenever the
vehicle is in motion.”

Recommendations

We recommend the vice president, Northeast Area Operations, require Springfield
Network Distribution Center management to:

1. Periodically assess Postal Vehicle Service driver workload and staffing requirements
   with respect to productivity standards to maintain appropriate staffing levels.

2. Verify the elimination of 11,657 annual Postal Vehicle Service driver workhours
   initiated by management for existing Postal Vehicle Service schedules that were not
   in use.




                                                       5
Springfield Network Distribution Center – Postal                                NO-AR-13-006
 Vehicle Service Operations



3. Eliminate an additional 8,623 annual workhours associated with improving Postal
   Vehicle Service driver productivity to the standard of five moves per hour.

4. Reemphasize the safety policy requiring Postal Vehicle Service drivers to wear
   safety belts when their vehicles are in motion and provide oversight for enforcing this
   requirement.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact. In
response to recommendation 1, management agreed to conduct annual efficiency
reviews of spotter activity based on the criteria of five moves per hour. The first review
was completed July 15, 2013.

In response to recommendation 2, management eliminated 11,657 driver workhours
from existing PVS schedules that were not in use by deactivating and eliminating four
schedules and modifying one route. These changes were completed on June 7, 2013.
Management also provided comments that removal of these scheduled hours in
June 2013 improved productivity and commented that the monetary impact remaining
after the elimination of these hours was $333,741.

In response to recommendation 3, management agreed to improve PVS driver
productivity. Management stated they are in the process of reviewing the PVS
schedules for the PVS annual bid in October 2013, and will be looking to create more
Non-Traditional Full Time schedules to reduce annual workhours. Management expects
this process to be completed by September 30, 2013.

Finally, in response to recommendation 4, management met with employees on
February 25, 2013, and conducted talks on the drivers’ responsibility to wear seat belts
when the vehicle is in motion. Management will continue to monitor and enforce this
policy. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations
corrective actions should resolve the issues identified in the report. We consider
recommendations 2 and 4 resolved, and will be closed with the issuance of this report.
Regarding management’s comments on recommendation 2, we agree that the removal
of the scheduled hours in June 2013 impacted productivity and that the remaining hours
to be reduced amounted to about $333,741. Our calculations on the remaining hours
apply to recommendation 3, and our monetary impact calculations considered the
actions already taken by management that removed the 11,657 hours from schedules in
June 2013. Our monetary calculations for the remaining hours referenced in
recommendation 3 were $68 more than calculated by the area, and we will reflect this
difference in our audit tracking system.

                                                   6
Springfield Network Distribution Center – Postal                           NO-AR-13-006
 Vehicle Service Operations



The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
the corrective action is completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                                   7
Springfield Network Distribution Center – Postal                                                     NO-AR-13-006
 Vehicle Service Operations



                                Appendix A: Additional Information

Background

PVS Operations. Postal Service transportation network that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or processing and
distribution centers in or near metropolitan areas. PVS operations typically include yard
operations in which PVS drivers use spotter trucks (see Figure 2) to move or ‘spot’
trailers and equipment in or around a facility yard, typically an NDC yard. PVS is capital
and personnel intensive. Nationwide, PVS capital assets include about 1,931 cargo
vans, 2,143 tractors (including spotter tractors), and 3,705 trailers. The Postal Service
has about 5,795 PVS drivers. The American Postal Workers Union represents PVS
drivers and support personnel.

The Springfield NDC has 58 drivers servicing 164 dock doors. These drivers are
responsible for an average of 3,743 trailer moves in the yard per week and this includes
moves for the STC.

                         Figure 2. Spotter Truck at the Springfield NDC




                          Source: OIG photograph taken February 20, 2013.

Live Loading and Unloading Process. An essential component of the NDC network is
the live unloading of trailers as they arrive at the facility and the live loading of trailers
for direct movement from the facility yard.12 This process avoids unnecessary
movement and placement (spotting) of trailers in the yard by PVS drivers and reduces


12
  Service Talk #2 Live Loading and Unloading of Trailers at Network Distribution Centers. This talk communicates to
NDC employees information on the conversion of bulk mail centers into NDCs. It explains that an essential
component of this new NDC network is the live loading and unloading of trailers as they arrive at the facility and
identifies specific roles and responsibilities.
                                                         8
Springfield Network Distribution Center – Postal                                                         NO-AR-13-006
 Vehicle Service Operations


overall transportation time and handling costs. Outgoing mail received at Tier 1 NDCs
from local processing facilities is containerized separately and must be unloaded and
transferred to the Tier 2 NDC in time to be processed and dispatched into the network.13
This requires the live unloading of originating trailers and the live loading of trailers for
the Tier 2 NDCs. Queuing and staging trailers for unloading at a later time may result in
delays and service failures.

Objectives, Scope, and Methodology

The objectives of our audit were to assess unloading and loading practices at select
NDCs and determine whether staffing of PVS transportation operations was efficient,
effective, and economical at the Springfield NDC. During our work, we interviewed
Postal Service officials at headquarters and the Springfield NDC, reviewed relevant
Postal Service policies and procedures, interviewed employees, and observed and
photographed operations.

We extracted reports from YMS that detailed all outbound dispatches at the Springfield
NDC for a 2-week period. We analyzed this data to determine whether the facility had
further opportunity to live load its outbound dispatches. We based this analysis on the
Postal Service policy, Standard Operating Procedures Live Loading and Unloading of
Trailers at Network Distribution Centers. We also obtained computer-generated data
from YMS for a consecutive 26-week period from August 1, 2012, through January 31,
2013, showing the PVS yard operational workload (trailer moves) for Springfield NDC
operations at the facility. We identified 97,315 trailer moves during the period under
review. We reviewed the Springfield NDC’s PVS schedules from the VITAL14 system to
determine the number of hours assigned to moving trailers. We examined this workload
with previously established Postal Service productivity standards of 40 moves per day
(five moves per hour) for PVS driver operations.

We assessed the reliability of YMS data by observing PVS drivers moving trailers within
the Springfield NDC yard and compared that to the YMS spotter move report. We
concluded the data were accurate and reliable. We also verified the accuracy of the
data of both YMS and VITAL through discussions with Postal Service officials
knowledgeable about the data and the system that produced the data. We determined
that the data were sufficiently reliable for the purposes of this report.

We conducted this performance audit from February through August 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
13
   Tier 1 sites distribute local and destination Standard Mail, Periodicals, and Package Services for the Tier 1 service
area. Tier 2 sites include Tier 1 responsibilities and distribution of outgoing Standard Mail, Periodicals, and Package
Services for assigned Tier 1 sites.
14
   A system used for administrative support of PVS operations containing and maintaining forms and PVS employee,
facility, vehicle, trailer, schedule, and route of travel data.
                                                                9
Springfield Network Distribution Center – Postal                                       NO-AR-13-006
 Vehicle Service Operations


our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 16, 2013, and included their
comments where appropriate.

Prior Audit Coverage

                                                          Final
                                         Report          Report           Monetary Impact
             Report Title               Number             Date
     Washington Network              NO-AR-13-001       3/21/2013           $4,767,190
     Distribution Center –
     Postal Vehicle Service
     Operations
     Report Results:
     The OIG recommended NDC managers eliminate 3,492 unnecessary workhours,
     periodically assess PVS workload and staffing requirements to maintain appropriate
     staffing levels, follow prescribed procedures for making HCRs efficient, verify
     eliminating or modifying 60 trips identified during our audit, emphasize and enforce the
     requirement that drivers wear safety belts, repair exterior doors’ badge readers and
     locks, and ensure that exterior doors are not left open. Management generally agreed
     with our findings and recommendations.

     St. Louis Network             NL-AR-12-008        9/21/2012             $598,948
     Distribution Center –
     Postal Vehicle Service
     Operations
     Report Results:
     The OIG recommended NDC managers eliminate 6,984 unnecessary workhours,
     periodically assess PVS workload and staffing requirements to maintain appropriate
     staffing levels, and reemphasize the policy on the use of safety belts while a vehicle is
     in motion. Management generally agreed with our findings and recommendations.

     Atlanta Network                NL-AR-12-007     7/24/2012             $694,105
     Distribution Center –
     Postal Vehicle Service
     Operations
     Report Results:
     The OIG recommended NDC managers eliminate 8,730 unnecessary workhours,
     periodically assess PVS workload and staffing requirements, and follow prescribed
     standard operating procedures for movement of trailers in the yard to maintain
     appropriate staffing levels. Management generally agreed with our findings and
     recommendations.




                                                   10
Springfield Network Distribution Center – Postal                                            NO-AR-13-006
 Vehicle Service Operations



                                     Appendix B: Monetary Impacts

            Recommendations        Impact Category                                    Amount
                   2        Funds Put to Better Use15                                 $902,51816
                   3        Funds Put to Better Use                                      667,617
                 Total                                                                $1,570,135
          Source: OIG analysis, as of June 5, 2013.

During our audit, the Postal Service initiated the elimination of 11,657 workhours
associated with existing PVS schedules that were not in use, avoiding costs for the
Postal Service amounting to $451,259 annually ($902,518 over 2 years). We also
concluded that Springfield NDC management could phase out 8,623 workhours from
active schedules by following established productivity standards. This would save the
Postal Service $333,809 annually ($667,617 over 2 years). Therefore, the total PVS
costs avoided or saved would be $785,068 annually ($1,570,135 over 2 years).




15
     Funds that could be used more efficiently by implementing recommended actions.
16
     This total represents avoided costs based on management’s action.
                                                           11
Springfield Network Distribution Center – Postal                NO-AR-13-006
 Vehicle Service Operations


                            Appendix C: Management's Comments




                                                   12
Springfield Network Distribution Center – Postal        NO-AR-13-006
 Vehicle Service Operations




                                                   13
Springfield Network Distribution Center – Postal        NO-AR-13-006
 Vehicle Service Operations




                                                   14
